                      UNITED STATES NUCLEAR REGULATORY COMMISSION




                                    tion di ge st
                       IG In f or ma
                     O

                                                                            Volume 2, Number 1
                                                                          NUREG/BR-0304 May 2004


To tell or not to tell
This issue of the OIG     Safeguards Information        •   Documents released         OIG has received
Information Digest is     (SGI) concerns the physi-         through the Freedom        many allegations
intended to make new      cal protection of operating       of Information Act         and has conducted
and veteran NRC em-       power reactors, spent fuel        (FOIA) process             14 investigations in
ployees more aware of     shipments, or the physical    •   The mail                   the recent past relat-
the problems                    protection of special   •   Discussion of sensitive    ing to the inadvertent
that can be en-                 nuclear material.           information in public      release of safe-
countered                                                   meetings or public         guards information,
when working                    Proprietary infor-          places                     information through
with sensitive                  mation (PROPIN)         •   Documents left on          the FOIA, classified
unclassified                    concerns trade se-          printers or in the copy    information, and offi-
information.                    crets, commercial,          machine                    cial use only infor-
There have been occa-     and financial information.    •   Documents left on a        mation.
sions in the past few                                       desk
years when sensitive      Official Use Only (OUO)       •   Unsecured                  However, in each
NRC information has       information concerns              floppy                     case, these releases
been released to the      agency records, privacy           disks                      were deemed not to
public. It is important   data, and investigative re-   •   Improperly                 be deliberate and
that you, as a Govern-    ports.                            disposed                   willful acts.
ment employee, are                                          information
aware of what types of    Be mindful of the avenues         in a recycle
information you are ob-   through which sensitive           box
ligated to disclose and   information can be inad-      •   Unsecured safes
which types must be       vertently released:           •   Shared computer
protected.                                                  passwords
                                                                                             Inside this issue:
                          •   E-mails
Prohibited Disclosure     •   Agencywide Docu-
                                                                                      To Tell Or Not To Tell       1
                              ments Access and
The following are the         Management System                                       OIG Audit Reports           2-4
types of information          (ADAMS)                                                 Credit Repair Scam          4-5
that should not be di-    •   Telephone conversa-
vulged to those without       tions
a need to know. The       •   Unattended computer
NRC handles three             terminals with sensi-
types of sensitive un-        tive information on the
classified information:       screen
PAGE 2                                                                    OIG INFORMATION DIGEST


OIG Audit Reports
OIG Audit Reports Continue              more than 700 non-public         physical protection of special nu-
to Focus on Preventing Inap-            documents which included         clear material. SGI is to be pro-
propriate Release of Informa-           proprietary information sub-     tected in accordance with NRC’s
tion                                    mitted by licensees and per-     sensitive unclassified informa-
                                        sonal information such as        tion security program. In accor-
Preventing the inadvertent re-          employee social security         dance with NRC
lease of sensitive NRC informa-         numbers and                      Management Direc-
tion to the public has been an          birth dates.                     tive and Handbook
ongoing concern for NRC in re-                                           12.6, "NRC Sensitive
cent years. Examples of such        •   Release of an Of-                Unclassified Informa-
releases, while not frequent,           ficial Use Only                  tion Security Pro-
have occurred often enough to           (OUO) prelimi-                   gram," SGI must be communi-
indicate that prevention de-            nary draft of the Yucca          cated over secure telecommuni-
mands an ongoing, rigorous ef-          Mountain Review Plan.            cations equipment, not be proc-
fort by the agency to keep em-                                           essed on the local area network,
ployees aware of their responsi-    •   Distribution of documents        be properly marked, and include
bilities and to review and im-          including safeguards infor-      a cover sheet to facilitate its rec-
prove procedures for protecting         mation (SGI) pertaining to       ognition.
this information.                       NRC’s force-on-force secu-
                                        rity testing program.            OIG found that NRC’s program
Since 1999, the Office of the In-                                        to protect SGI had three weak-
spector General has issued four     •   Verbal disclosure of SGI per-    nesses: (1) The benefit of the
audit reports specifically ad-          taining to the force-on-force    SGI designation as sensitive un-
dressing the need to protect            program during an indus-         classified information was not
sensitive agency information            try-sponsored meeting.           clear, (2) NRC and licensee rep-
from inadvertent release to the                                          resentatives had inappropriately
public. Some themes in these        One of these audits was initiated    released SGI to unauthorized
reports reflect the need to pro-    in response to a congressional       individuals because of handling
vide training, consolidate and      request, one was in response to      errors and differing interpretation
clarify guidance, and maintain      a request from the NRC Chair-        of what constitutes SGI, and (3)
records of inadver-                 man, and two were initiated by       NRC lacked a central authority
tent releases so that               OIG. The following are summa-        for controlling, coordinating, and
trends can be identi-               ries of these four audit reports,    communicating SGI program re-
fied. The reports de-               beginning with the most recent.      quirements.
scribed instances
where information                   OIG-04-A-04, Audit of NRC’s          OIG-03-A-01, Review of NRC’s
was inadvertently released to       Protection of Safeguards In-         Handling and Marking of Sen-
the public.                         formation (January 8, 2004)          sitive Unclassified Information
                                                                         (October 16, 2002)
Examples included the inappro-      This audit sought to determine
priate:                             whether NRC adequately de-           The objective of this review was
                                    fines SGI, prevents the inappro-     to assess NRC’s program for the
•   Release of names and iden-      priate release of SGI to anyone      handling, marking, and protec-
    tifying information in two      who should not have access to        tion of OUO information. OUO
    Freedom of Information Act      it, and ensures the protection of    is one category of sensitive un-
    (FOIA) responses resulting      SGI. SGI deals with information      classified information that in-
    in legal action against NRC.    related to the physical protection   cludes personnel records, pri-
                                    of operating power reactors,         vacy data, investigative reports,
•   Release through ADAMS of        spent fuel shipments, or the         and predecisional or internal
VOLUME 2, NUMBER 1                                                                                    PAGE 3


OIG Audit Reports                                  (con’t from page 2)

NRC data. This category of in-        The objective of this review was      ess was taking into considera-
formation requires special han-       to assess the cause of an unau-       tion the need to protect sensitive
dling to ensure only limited inter-   thorized release of non-public        data from unauthorized release.
nal distribution and no disclo-       information to the Agencywide
sure to the public. Some OUO          Documents Access and Man-             The audit found that NRC’s
information is intended to be re-     agement System (ADAMS) pub-           guidance and policies concern-
leased to the public after certain    lic library. ADAMS is NRC’s           ing sensitive information were
conditions have been met such         electronic record keeping sys-        scattered among many manage-
as official approval of the docu-     tem that maintains the official       ment directives, manuals, and
ment.                                 records of the agency. ADAMS          other documents. This in-
                                      is also NRC’s public information      creased the potential for staff to
OIG found that NRC’s guidance         dissemination                         miss or misapply pertinent guid-
for protecting OUO documents          system that                           ance and that inadvertent re-
from inadvertent public release       places publicly                       leases of sensitive information
was inadequate. Specifically,         available records                     occur because staff have varied
the use of OUO cover sheets           on NRC’s public                       levels of training and awareness
was left to the discretion of the     Web server.                           regarding the handling of this in-
document originator. In addi-         The ADAMS                             formation.
tion, individual pages of docu-       Public Library contains duplicate
ments were not always marked          copies of publicly available offi-    Agency Actions in Response
and were therefore vulnerable to      cial agency records copied from       to OIG Audits
public disclosure if separated        the ADAMS Main Library.
from the cover sheet. Consis-                                               Each of these audit reports con-
tent markings were not used on        The audit found that ADAMS            tained recommendations to NRC
sensitive unclassified docu-          software controls were inade-         for strengthening controls to pro-
ments that were marked, which         quate to prevent the unauthor-        tect sensitive information from
added to the confusion sur-           ized release of documents, the        inadvertent release. Some
rounding the proper marking and       ADAMS security plan did not en-       changes that NRC has imple-
handling of sensitive unclassi-       tirely identify risks to the system   mented as a result of these rec-
fied information.                     and was not finalized, and com-       ommendations include:
Auditors also                         munication was ineffective sub-
found that many                       sequent to the unauthorized re-       •   Redesign of OUO and SGI
employees                             lease of non-public documents.            cover sheets to clearly illus-
were not knowl-                                                                 trate and explain required
edgeable about                        OIG/98A, Review of NRC Con-               document markings and ac-
NRC’s guid-                           trols To Prevent the Inadver-             cess requirements.
ance and requirements in this         tent Release of Sensitive In-
area because training on han-         formation (February 2, 1999)          •   Revision of several manage-
dling, marking, and protecting                                                  ment directives to clarify
sensitive unclassified informa-       This audit sought to determine if         agency guidance concerning
tion was not provided to all NRC      NRC’s management controls for             OUO protection.
employees and contractors on a        protecting sensitive information
regular basis.                        from inadvertent release were         •   Revision of ADAMS operat-
                                      adequate and whether NRC was              ing procedures to adequately
OIG-01-A-16, Review of the            implementing the agency’s guid-           control the process for copy-
Unauthorized Release of               ance to protect this information          ing documents from the Main
Documents to the ADAMS                from inadvertent release. The             Library to the Public Library.
Public Library, (September 24,        audit also sought to determine if
2001)                                 the ADAMS development proc-
PAGE 4                                                                              OIG INFORMATION DIGEST


Oig audit reports                                    (Cont. from page 3)

 •   Mandatory annual employee
     training concerning the pro-
     tection of sensitive unclassi-
     fied information.

 •   Improved cross-referencing of
     management directives to fa-
     cilitate employee awareness
     of agency guidance concern-
     ing the protection of sensitive
     information.



Credit repair scam                             (Article from the National Consumer’s League)


In the last issue of the OIG Infor-    The following tips are intended to         quest a copy. There may be a
mation Digest, we provided in-         help you avoid falling victim to this      small fee, if your State law does
formation concerning identity          type of scam:                              not provide for one free report a
theft. A lesser known scam that                                                   year. However, it doesn’t cost
is targeting individuals across        No one can erase negative infor-           anything to question or dispute
the country is referred to as the      mation if it’s accurate. Only in-          items in your report. Follow the
credit repair scam. This scam          correct information can be re-             instructions provided by the
involves people that currently         moved. Accurate information stays          credit bureau. The major credit
have a problem with their credit       on your record for 7 years from the        bureaus are:
ratings or have had problems in        time it’s reported (10 years for            Equifax, 800-685-111,
the past.                              bankruptcy). Even information              www.equifax.com;
                                       about bills you fell behind on but         Experian, 800-682-7654,
The Scam                               now are paid will remain on your           www.experian.com; and
                                       report for these time periods.             Trans Union, 800-916-8800,
Everyday, companies nation-                                                       www.transunion.com. Contact
wide appeal to consumers with          Credit repair services can’t ask           all three, as the information each
poor credit histories. They            for payment until they’ve kept             has may vary.
promise, for a fee, to                          their promises. Federal
clean up your credit re-                        law also requires credit re-      You can add an explanation to
port so you can get a                           pair services to give you an      your report. If there is a good
car loan, a home mort-                          explanation of your legal         reason why you
gage, insurance, or                             rights, a detailed written        weren’t able to
even a job. The truth                           contract, and 3 days to           pay bills on time
is, they can't deliver.                         cancel (this applies to for-      (job loss, sudden
After you pay them hundreds or         profit services, not to nonprofit or-      illness, etc.) or
thousands of dollars in up-front       ganizations, banks and credit un-          you refused to
fees, these companies do noth-         ions, or the creditors themselves).        pay for something because of a
ing to improve your credit report;                                                legitimate dispute, give the
many simply vanish with your           You can correct mistakes on                credit bureau a short statement
money .                                your credit report yourself. If you        to include in your file.
                                       were recently denied credit be-
                                       cause of information in your credit
                                       report, you have the right to re-
 VOLUME 2, NUMBER 1                                                                             PAGE 5




       Organization
UNITED STATES NUCLEAR REGULATORY
COMMISSION


Office of the Inspector General
11545 Rockville Pike
Mail Stop T 5D28
Rockville, MD 20851



Hotline: 800-233-3497
Fax: 301-415-5091




         We’re on the
           Web!!




Credit Repair scam                                   (cont. from page 4)

Know that you can’t create a          vices are offered for free or at a   ployees who are experiencing
second credit file. Fraudulent        very low cost. To find the near-     financial problems are referred
companies sometimes offer to          est CCCS office, call toll-free,     to local credit counseling agen-
provide consumers with different      800-388-2227, or go to www.          cies.
tax identification or social secu-    nfcc.org.
rity numbers in order to create a                                          All inquiries and services to the
new credit file. This practice,                                            EAP are kept confidential within
called “file segregation,” is ille-   As an NRC employee, you are          the law and all records are pro-
gal, and doesn’t work.                entitled help from the NRC           tected by law (42 CFR Part 2).
                                      Employee Assistance Pro-
If you have credit problems,          gram (EAP). There are bene-
get counseling. Your local            fits provided by the EAP if you
Consumer Credit Counseling            are experiencing financial diffi-
Service (CCCS) can provide ad-        culties and do not know who to
vice about how to build a good        turn to for help. The EAP will
credit record. The CCCS may           provide assessment, referral,
also be able to make payment          and short-term problem resolu-
plans with your creditors if          tion for a number of personal
you’ve fallen behind. These ser-      and worksite-based issues. Em-
